Report No. D-2009-011         November 12, 2008




      Independent Auditors Report on the
           Department of the Navy's
      Environmental Disposal for Weapons
       Systems Audit Readiness Assertion
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704



                                                                      November 12, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
              ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE


SUBJECT: Independent Auditors Report on the Department of the Navy's
         Environmental Disposal for Weapons Systems Audit Readiness Assertion
         (Report No. D-2009-011)

        We are providing this report for information and use. No written response to this
report was required. Therefore, we are publishing this report in final form.

       We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Edward A. Blair at (216) 706-0074 extension 226 or Ms. Laura I.S. Croniger at
(216) 706-0074 extension 227. The team members are listed inside the back cover.



                                             1rJ;;~ a. mO~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704



                                                                      November 12, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
              ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                SERVICE



SUBJECT: Independent Auditors Report on the Department of the Navy's
         Environmental Disposal for Weapons Systems Audit Readiness Assertion
         (Report No. D-2009-011)

        We have examined management's assertion of audit readiness for the Department
ofthe Navy's Environmental Disposal for Weapons Systems portion of the
Environmental Liabilities line item reported on the General Fund Balance Sheet as of
March 31, 2007. The Department of the Navy's management is responsible for its
assertion of audit readiness. The January 10, 2007, Management Assertion for
Environmental Liabilities (Environmental Disposal for Weapons Systems), Department
of the Navy General Fund memorandum to the Department of Defense Office of
Inspector General (OIG) sets forth the following criteria for the assertion of audit
readiness. The Department of the Navy is responsible for: providing sufficient
audit-ready evidential matter to support Environmental Disposal for Weapons Systems
transactions; providing auditors with sufficient, appropriate audit evidence in a timely
manner to complete the examination; and demonstrating its ability to sustain audit
readiness in future periods. Our responsibility is to express an opinion on management's
assertion of audit readiness based on our examination.

        We conducted our examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants and generally
accepted government auditing standards as stated in the Government Accountability
Office's "Government Accounting Standards." Those standards require examining, on a
test basis, evidence supporting the Department of the Navy's assertion of audit readiness
for the Environmental Disposal for Weapons Systems portion of the Environmental
Liabilities line item, and performing other procedures we considered necessary in the
circumstances. Our objective was not to express an opinion on the balance of the
Environmental Disposal for Weapons Systems portion of the Environmental Liabilities
line item as of any specific point in time. We believe that our examination provides a
reasonable basis for our opinion on management's assertion.

        Our examination of management's assertion of audit readiness for the Department
of the Navy's Environmental Disposal for Weapons Systems portion of the
Environmental Liabilities line item reported on the General Fund Balance Sheet as of
March 31, 2007, disclosed that the:

       •   Naval Sea Systems Command Financial Improvement Program team did not
           properly calculate and record the nuclear powered and non-nuclear portion of
           the Environmental Liabilities line item;


                                            I
       •   Navy did not include all of the disposal costs related to its weapon systems in
           accordance with 49 Code of Federal Regulations 172.101 (2007) and the DoD
           Regulation 7000.14-R, "DoD Financial Management Regulation," volume 4,
           chapter 13, "Environmental and Nonenvironmental Liabilities," October 2005;

       •   Naval Sea Systems Command Financial Improvement Program team did not
           ensure the adequacy or availability of the external source documentation from
           the Naval Vessel Register and the Hitchhikers Guide to Navy Surface Ships to
           support the environmental liability calculation. In addition, the team did not
           provide internal supporting documentation necessary to determine whether the
           environmental liability calculation was reliable and reasonable. Therefore, the
           Naval Sea Systems Command Financial Improvement Program team did not
           comply with the DoD Regulation 7000.14-R, volume I, chapter 3,
           "Accounting Systems Conformance, Evaluation, and Reporting," May 1993;
           "Financial Improvement Initiative Business Rules," June 23,2003; and the
           OIG memorandum, "Auditor Access for Financial Statement Audits,"
           January 24,2005; and

       •   Naval Sea Systems Command Financial Improvement Program team did not
           have sufficient internal controls over the review ofthe amortization
           workbooks.

        In our opinion, the Department of the Navy's assertion of audit readiness for the
Environmental Disposal for Weapons Systems pOliion of the Environmental Liabilities
line item, as of March 31, 2007, is fairly stated in all material respects, except for the
deviations from the criteria described in the preceding paragraph.

        In accordance with Government Auditing Standards, we reported in detail the
matters noted above to the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, the Assistant Secretary of the Navy (Financial Management and Comptroller),
and the Director, Defense Finance and Accounting Service separately on
October 10,2008, in DoD IG Report No. D-2009-002, "Attestation of the Department of
the Navy's Environmental Disposal for Weapons Systems Audit Readiness Assertion."

       This report is intended solely for the information and use of the Under Secretary
of Defense (Comptroller)/ChiefFinancial Officer, the Assistant Secretary of the Navy
(Financial Management and Comptroller), and the Director, Defense Finance and
Accounting Service and is not intended to be and should not be used by anyone else.
However, this report is a matter of public record, and its distribution is not limited.


                                                 I~              a. Itlcw-.l
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations




                                             2
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Business Operations prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Amy J. Frontz
Edward A. Blair
Laura J.S. Croniger
Dwayne A. Coulson
Cindy L. McMahan
Serhij (Peter) Nahornyj
Juntyna M. McDonald
Joanna B. Sokolowski
Ann Thompson
